The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Deanna Tanner Okun, Chairman
                                        Charlotte R. Lane
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Irving A. Williamson
                                        Dean A. Pinkert
OFFICE OF INSPECTOR GENERAL




     UNITED STATES INTERNATIONAL TRADE COMMISSION

                                 WASHINGTON, DC 20436



July 7, 2010                                                               OIG-HH-019


Chairman Okun:

This memorandum transmits the Office of Inspector General’s final audit report Audit of
Internal Controls Related to the PP&E Account. In finalizing the report, we analyzed
your comments on our draft report and have included those comments in their entirety in
Appendix A.

This report contains one recommendation for corrective action. In the next 30 days,
please provide me with your management decisions describing the specific actions that
you will take to implement the recommendation.

Thank you for the courtesies extended to the auditors during this audit.

Sincerely,




Philip M. Heneghan
Inspector General
                                 U.S. International Trade Commission
                                             Audit Report



                                      TABLE OF CONTENTS

Results of Review .......................................................................................... 1

Problem Areas & Recommendations.......................................................... 2
   Problem Area 1: On-Top Adjustments Recorded to the PP&E Account Could Not
   Be Substantiated ............................................................................................................. 2

   Problem Area 2: Lack of Established PP&E Policies and Procedures .......................... 2

   Problem Area 3: Lack of Documentation Supporting Capital Acquisitions ................ 3
     Recommendation 1: That the Commission establish documentation standards for
     acquisition files to support conclusions reached as to the best value for the
     government.................................................................................................................. 4

Management Comments and Our Analysis ............................................... 5

Objective, Scope, and Methodology ............................................................ 5

Appendix A: Management Comments on Draft Report




OIG-AR-08-10                                                   -i -
                     U.S. International Trade Commission
                                 Audit Report


                                Results of Review
The purpose of this review was to confirm that the Commission has the appropriate
internal controls in place to substantiate the balance of the Property, Plant, and
Equipment (PP&E) account on the 2009 Financial Statement.

Management was unable to provide complete or accurate documentation to support the
amounts recorded, as a result we were unable to obtain sufficient evidence to substantiate
the amounts presented in the PP&E account on the 2009 Financial Statement.

Specifically, we were unable to find:

           x   Documentation to support an on-top adjustment (for reclassifying assets)
               in the PP&E account in the amount of $1.4 million;

           x   Documentation to support an on-top adjustment (for accumulated
               depreciation) in the PP&E account in the amount of $234 thousand;

           x   Documentation to define the rationale for calculating and monitoring the
               values reported in the PP&E account;

           x   Documentation to determine the useful life of an asset;

           x   Documentation to determine depreciation methods; and

           x   Documentation to determine the threshold for capitalization of bulk
               purchases.

Management did not have the appropriate internal controls in place to substantiate the
balance of the PP&E account on the 2009 Financial Statement. The inability to
substantiate the balances in the account puts the Commission at risk for potential misuse
of government funds, an increased probability of reporting errors, and greater risk of
noncompliance with applicable laws, regulations, and standards. The results of the
review are described in further detail below.




OIG-AR-08-10                               -1 -
                     U.S. International Trade Commission
                                 Audit Report


                   Problem Areas & Recommendations

                                     Problem Area 1:
               On-Top Adjustments Recorded to the PP&E Account
                          Could Not be Substantiated


The review identified material differences on the amount recorded by the Commission as
an on-top adjustment to the PP&E account for the Internal-Use software (IUS) general
ledger account and related contra asset account.

The Office of Finance was unable to provide complete and accurate documentation to
support the costs associated with two of the on-top adjustments recorded in the PP&E
account. As a result, the Commission was unable to substantiate the balance reported in
the FY 2009 financial statement for the PP&E account.

We identified the following three conditions:

   x   Lack of procedures requiring that complete, valid, and accurate documentation be
       maintained to support each amount recorded in the PP&E account
   x   Lack of a policy requiring that a detailed review to reconcile and validate all on-
       top adjustments be conducted
   x   Lack of procedures requiring that a detailed review be conducted of all
       adjustments prior to posting to the general ledger and financial statements.

All three of these conditions were previously reported in Independent Auditor’s Report
on Internal Control for Financial Statements, OIG-AR-02-10. Management decisions
have been agreed upon and final action is already underway. No further
recommendations were identified in this area as a result of this review.



                                     Problem Area 2:
           Lack of Established Property, Plant, and Equipment (PP&E)
                             Policies and Procedures


During the review, we noted that the Commission did not have formal policies and
procedures in place to support the rationale for calculating and monitoring the values
reported in the PP&E account. For example policies were not in place to:

   x   Determine the useful life of an asset
   x   Calculate depreciation


OIG-AR-08-10                               -2 -
                     U.S. International Trade Commission
                                 Audit Report


   x   Determine the threshold for capitalization of bulk purchases

The Commission has not documented or distributed formal policies or standardized
procedures to support values reported in the PP&E account. As a result, the financial
information reported in the PP&E account could be materially misstated. In addition,
there is an increased risk that the Commission is not in compliance with applicable laws,
regulations, and standards.

The following two conditions were reported:

   x   Lack of policies and standardized procedures that document the rationale for
       calculating and monitoring the values reported in the PP&E account in
       accordance with applicable standards, laws, and regulations,

   x   Lack of communication, dissemination, and training to relevant personnel within
       all levels of the organization on the policies and procedures for calculating and
       monitoring values reported in the PP&E account.

Both of these conditions were previously reported in Independent Auditor’s Report on
Internal Control for Financial Statements, OIG-AR-02-10. Management decisions have
been agreed upon and final action is already underway. No further recommendations
were identified in this area as a result of this review.



                                     Problem Area 3:
             Lack of Documentation Supporting Capital Acquisitions


Our review of acquisition files to support the leasing of equipment by the Commission
found that documentation was missing to support the purchase versus lease decision. The
Commission currently pays $216,508 a year for two equipment leases. If the leases are
carried through the lease life, the total cost would be $966,052. The Commission could
not provide any documentation to support the determination that purchasing the
equipment would have been substantially more expensive and therefore not the best value
for the government.

Documentation should be maintained that support the investment planning process for
capital assets purchased or leased in order to document the decision on the best value for
the government. Internal controls should be designed to provide reasonable assurance
regarding prevention of or prompt detection of unauthorized acquisition, use, or
disposition of assets. In addition, there was no documentation that a best value analysis
was performed before a determination was made to lease the equipment.




OIG-AR-08-10                               -3 -
                      U.S. International Trade Commission
                                  Audit Report

Documentation supporting the detailed analysis of the useful life used for the leases was
not prepared. Our review of documentation provided in support of the assets which the
Commission believed to be capital leases noted errors in the rationale used to record the
leases as capital assets instead of operating expenses. The Commission used an estimated
useful life of four and five years respectively for the leases, apparently using previous
leasing timelines of similar equipment as the rationale for establishing the useful life. An
asset’s useful life is defined as a period over which an asset is expected to be usable, with
normal repairs and maintenance, for the purpose it was acquired, rented, or leased.

In the case of the leased machines, research performed by the independent auditors,
including discussions with the company that leased the assets, indicated that the useful life
of similar machines was 15 to 20 years, not four or five years as indicated by the
Commission. As a result, the financial statements liabilities were materially overstated by
the decision to record the leases as capital assets rather than operating expenses.

In addition, errors on the financial statements should have been discovered and corrected
before the revised financial statements were provided to us. We identified the following
four conditions:

   x   Lack of a current organizational structure to ensure adequate resources are
       allocated to the Office of Finance

   x   Lack of training for financial staff on federal accounting and reporting
       requirements, as well as on the accounting servicer’s financial system

   x   Lack of formal policies and procedures to ensure the Commission is in
       compliance with applicable accounting, financial management and reporting
       standards and regulations

   x   Lack of a policy that identifies which financial management decisions need to be
       reviewed outside the Office of Finance to ensure decisions are supported and in
       accordance with applicable accounting standards and OMB regulations.

All four of these conditions were previously reported in Independent Auditor’s Report on
Internal Control for Financial Statements, OIG-AR-02-10. Management decisions have
been agreed upon and final action is underway. One additional recommendation was
identified in this area as a result of this review.

Recommendation 1:

That the Commission establish documentation standards for acquisition files to support
conclusions reached as to the best value for the government.




OIG-AR-08-10                                -4 -
                      U.S. International Trade Commission
                                  Audit Report


              Management Comments and Our Analysis

On June 28, 2010, Chairman Deanna Tanner Okun provided management comments to
the draft audit report. The Chairman concurred with our assessment, and acknowledged
the that the three problem areas identified in the report needed to be resolved and were
now being actively addressed by management.




                    Objective, Scope, and Methodology
Objective:

The objective of this evaluation was to confirm that the Commission has sufficient
internal controls in place to substantiate the balance of the PP&E account on the 2009
Financial Statements.

Scope:

This evaluation was limited to testing internal controls necessary to achieve the
objectives described in the Office of Management and Budget Bulletin No. 07-04, Audit
Requirements for Federal Financial Statement, as amended, in regards to the balance of
the PP&E account as recorded on the 2009 Financial Statement.

Methodology:

We engaged the services of an independent public accounting firm to substantiate the
balance on the PP&E account and review the related the internal controls such as,
policies and procedures to support the rationale for calculating and monitoring the values
reported in the PP&E account, and acquisition files to support capital planning decisions
as reported on the Commission’s 2009 balance sheet. The audit was limited in nature and
therefore would not necessarily identify all deficiencies in internal control over financial
reporting.


The auditors performed an examination of evidence to support the amounts for assets
recorded in the PP&E account on the 2009 financial statements. The auditors also
assessed the standards used to support the rationale and calculation of values reported for
assets recorded in the PP&E account.




OIG-AR-08-10                                -5 -
                     U.S. International Trade Commission
                                 Audit Report

The Office of Inspector General engaged the services of an Independent Public
Accountant who performed this audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). Those standards require that the audit be
planned and performed to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




OIG-AR-08-10                               -6 -
               U.S. International Trade Commission
                            Appendix A


    Appendix A: Management Comments on Draft Report




OIG-AR-08-10
               U.S. International Trade Commission
                            Appendix A




OIG-AR-08-10
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to perform complex mathematical calculations involving roots and powers quickly. The instrument was used
by architects, engineers, and actuaries as a measuring device.
